<html>
<title> - CHINESE AND RUSSIAN INFLUENCE IN THE MIDDLE EAST</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


            CHINESE AND RUSSIAN INFLUENCE IN THE MIDDLE EAST

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
       THE MIDDLE EAST, NORTH AFRICA, AND INTERNATIONAL TERRORISM

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2019

                               __________

                           Serial No. 116-37

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov,
                       or http://www.govinfo.gov
                       
                               __________
                       
                       
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
36-424PDF                        WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2641564966455355524e434a560845494b08">[email&#160;protected]</a>                      
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
                   
 BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                    
                   
                   
                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director

                                 ------                                

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism
                               
                               

                 THEODORE E. DEUTCH, Florida, Chairman
GERALD E. CONNOLLY, Virginia         JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island            Ranking Member
TED LIEU, California		     STEVE CHABOT, Ohio
COLIN ALLRED, Texas		     ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey	     LEE ZELDIN, New York
DAVID TRONE, Maryland	             BRIAN MAST, Florida
BRAD SHERMAN, California	     BRIAN FITZPATRICK, Pennsylvania
WILLIAM KEATING, Massachusetts	     GUY RESCHENTHALER, Pennsylvania
JUAN VARGAS, California	             STEVE WATKINS, Kansas                                 

                     Casey Kustin,  Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Alterman, Dr. Jon B., Senior Vice President, Zbigniew Brzezinski 
  Chair in Global Security and Geostrategy, Director of the 
  Middle East Program, Center for Strategic and International 
  Studies........................................................     8
Exum, Dr. Andrew, Executive, Hakluyt & Company, Former Deputy 
  Assistant Secretary of Defense for Middle East Policy..........    20
Wormuth, Honorable Christine, Director, International Security 
  and Defense Policy Center, Senior Fellow, Rand Corporation, 
  Former Under Secretary of Defense for Policy...................    31
Borshchevskaya, Ms. Anna, Senior Fellow, Washington Institute for 
  Near East Policy...............................................    43

                                APPENDIX

Hearing Notice...................................................    66
Hearing Minutes..................................................    67
Hearing Attendance...............................................    68

 
            CHINESE AND RUSSIAN INFLUENCE IN THE MIDDLE EAST

                         Thursday, May 9, 2019

                        House of Representatives

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 2:11 p.m., in 
room 2172 Rayburn House Office Building, Hon. Theodore E. 
Deutch (chairman of the subcommittee) presiding.
    Mr. Deutch. All right. This hearing will come to order.
    Welcome, everyone. The subcommittee is meeting today to 
hear testimony on Chinese and Russian influence in the Middle 
East. I thank our witnesses for appearing here today. I will 
now recognize myself for the purpose of making an opening 
statement, and then will turn it over to the ranking member to 
do the same.
    Thanks so much to our witnesses for testifying today and 
for helping us examine patterns of Russian and Chinese 
influence in the Middle East and North Africa. In the fall of 
2015, Russia launched a targeted military intervention in Syria 
to save the regime of Bashar al-Assad and ensure access to 
military bases on the Mediterranean Sea.
    Moscow has used this foothold to assert its interests 
throughout the region, to expand its political and military and 
economic influence, to reclaim its status as a great power, and 
to offer itself as an authoritarian alternative to the United 
States.
    In recent years, Moscow conducted military exercises with 
Egypt and sold Cairo more than $2 billion worth of aircraft, 
cooperated with Saudi Arabia to stabilize global oil prices, 
expanded ties with Khalifa Haftar in Libya, engaged in 
discussions to sell the S-400 Missile Defense System to Qatar, 
and strengthened relations with both Iran and with Israel.
    China has also expanded its influence in the Middle East 
and North Africa in recent years, although in a different way. 
China's engagement has been primarily economic rather than 
military or political.
    Since 1995, the region has been China's No. 1 source of 
imported petroleum. China overtook the United States as the 
largest net importer of crude oil from the Middle East in 2013. 
By 2018, roughly 44 percent of China's crude oil imports came 
from nine Middle Eastern countries.
    Every major regional actor, including Israel, Saudi Arabia, 
and Iran, has expressed interest in various projects of China's 
Belt and Road Initiative. If history teaches us anything, China 
is likely to increase its political engagement and expand its 
military footprint to secure these economic interests.
    Indeed, in 2017, Iran and China held a joint naval exercise 
in the Persian Gulf, and just last month Egypt hosted the 
Chinese and Russian navies in a training exercise.
    China began operating its first overseas military base 
located in Djibouti in 2017, providing it greater naval access 
to the Red Sea, Gulf of Aden, and Arabian Sea.
    The expanding regional roles of both Russia and China are 
of particular importance in light of the Trump administration's 
national security strategy that prioritizes great power 
competition. Under this paradigm, rivalry with both China and 
Russia will become the organizing principle of U.S. foreign 
policy, yet we continue to see unprincipled China policy and 
deference to Russia.
    The administration's announced withdrawal from Syria was a 
gift to Putin at a time when clear-eyed American leadership is 
what is clearly needed. The Middle East and North Africa may 
become an arena of strategic competition to an extent not seen 
since the early years of the cold war.
    I hope our witnesses can draw upon their experience and 
share their insight to help us understand Moscow and Beijing 
strategies in the region, where our interests overlap or 
diverge, and how the United States should approach Russia and 
China's roles in the Middle East and North Africa.
    And with that, I will turn it over to the ranking member, 
Mr. Wilson, for his opening statement.
    Mr. Wilson. Chairman Deutch, thank you for holding this 
important hearing. China and Russia's increasing presence in 
the Middle East underscores the necessity of American 
leadership in the region. Beijing and Moscow are engaged on all 
levels in the Middle East and North Africa, political, 
military, economic, and beyond. And they are planning for the 
long haul, raising serious questions for U.S. interest and 
policy in the region.
    As we delve into this discussion, we must also bear in mind 
that China and Russia's engagement in the Middle East is not 
only meant to increase their clout and influence in the region, 
but to decrease America's influence. Indeed, China and Russia 
are eager to take advantage of fissures between the U.S. and 
our traditional allies. They seek to portray themselves to our 
regional allies as viable alternatives to the U.S. while 
deepening their involvement in the region at our expense.
    Under Chinese President Xi's leadership, China has expanded 
its engagement in the region dramatically. Beijing has 
dedicated considerable focus on the Middle East as part of the 
controversial Belt and Road Initiative. China has invested in 
nearly every country in the region, including in Israeli ports 
and railways and the expansion of the Suez Canal in Egypt.
    Even more concerning are China's technology initiatives in 
the region. While the United States has voiced concern about 
Huawei, ZTE, and other technology firms, our friends in the 
Middle East seem happy to integrate Chinese initiatives in 
their technology sectors. In 2019 alone, Bahrain, Turkey, Saudi 
Arabia, and the UAE have already engaged with China on telecom 
and 5G infrastructure.
    Although China's activity in the region has historically 
focused on economics, under President Xi, Beijing has also 
increased its military footprint, as Beijing deepens military 
ties with traditional U.S. allies in the region, like Saudi 
Arabia and Egypt, and the United States must make it clear to 
our partners that collaboration with China comes at a 
significant real-world consequence.
    Late last year, the U.S. Navy announced it would reconsider 
port calls to Haifa, Israel, once the Shanghai International 
Port Group, a company in which the Chinese government has a 
majority stake, takes over the civilian port in 2021. Like 
China, Russia has been strengthening military and diplomatic 
ties with our traditional Middle Eastern allies for years now, 
seeking to submit its role as a regional power broker.
    Since Russia's 2015 intervention in the Syrian civil war, 
and support of the Assad regime, Moscow has also built strong 
economic ties with Saudi Arabia and Qatar, sold billions of 
dollars of arms to the UAE, and cultivated close ties to 
President Sisi of Egypt.
    Russia's Middle East strategy has been to cultivate those 
ties with all actors, both U.S. friends and posts, in service 
of its ultimate goal of dominating the region and undermining 
U.S. interest. Moscow has depended on its relationships in 
recent years with Iran, Hezbollah, Turkey, Israel, as well as 
the rival Palestinian and Libyan factions.
    And as Russia's role in the region continues to grow, 
actors in the region will feel less inclined to heed to U.S. 
interest, like respect for rule of law, democratic 
institutions, and human rights. While Russia and China appear 
to be real viable alternatives to the U.S., whether it be 
military, politically, or economically, the region will move 
toward authoritarianism and away from democracy.
    I hope our expert witnesses today can address these crucial 
issues. How can the United States continue to advocate for our 
democratic values in the Middle East without pushing our 
friends and partners into the arms of Russia and China?
    There is simply no alternative to U.S. leadership. We must 
redouble our efforts to deepen ties to the region and caution 
our allies that full-scale engagement with Russia or China is 
not in their interest.
    The Middle East faces many challenges already, but if we 
fail to face the increasing Chinese and Russian influence in 
the region, things will only get worse for the people of the 
Middle East and for the United States and its interest for 
freedom and democracy.
    I yield back the balance of my time.
    Mr. Deutch. I thank the ranking member. I will now 
recognize members of the subcommittee who wish to be recognized 
for a 1-minute opening statement. Mr. Cicilline, you are 
recognized.
    Mr. Cicilline. Thank you, Mr. Chairman, for calling this 
important hearing. And, of course, thank you to our witnesses 
for being here today.
    As it has in so many parts of the world, in the Middle 
East, the Trump administration has forfeited American 
leadership in an ongoing series of diplomatic and strategic 
blunders that have set back our standing in the region, not to 
mention the world.
    The administration pulled out of the Iran deal with no 
replacement, leaving an emboldened Iran that indicates it will 
return to its nuclear program. The administration's Syria 
policy is virtually non-existent. And Saudi Arabia, the Trump 
administration has embraced a government that has had a 
journalist hacked to deal.
    And Yemen, the United States is supporting a conflict that 
has led to unspeakable human suffering and inflamed tensions in 
the region. The list of failures goes on and on.
    The lack of a clear U.S. strategy and diplomatic engagement 
in the region has created a vacuum--a vacuum China and Russia 
are already exploiting. This is making the region less stable. 
It is emboldening human rights offenders who take the 
administration's ambivalence toward human rights as a green 
light to crack down on civil society, further discriminate 
against women and LGBTQ individuals, and silence free speech.
    Today, I hope we can discuss the risk the American 
security, as well as the risk to human rights, posed by a 
rising Russia and China in the Middle East.
    I look forward to examining what Congress can do to support 
human rights activists in the region and to ensure the 
administration promotes American interests as well as our 
values. In the absence of a strategic vision by the 
administration, Congress must step up on behalf of the American 
people and set forth a path in the Middle East.
    And thank you, Mr. Chairman, again for calling this very 
important hearing, and I yield back.
    Mr. Deutch. Thank you, Mr. Cicilline. Seeing no other 
requests for opening statements, we will move on. Without 
objection, all members may have 5 days to submit statements, 
questions, and extraneous materials for the record subject to 
the length limitations in the rules.
    It is now my pleasure to introduce our witnesses. Dr. Jon 
Alterman is senior vice president, Zbigniew Brzezinski Chair in 
Global Security and Geostrategy, and is director of the Middle 
East Program at the Center for Strategic and International 
Studies.
    He previously served in multiple roles at the United States 
Department of State, as an expert advisor to the Iraq Study 
Group, and before entering government, he was a scholar at the 
U.S. Institute of Peace and the Washington institute for Near 
East Policy. In addition to his policy work, he teaches Middle 
Eastern studies at the Johns Hopkins School of Advanced 
International Studies and the George Washington University.
    Next, I will turn to my colleague from Texas, Mr. Allred, 
to introduce his constituent.
    Mr. Allred. Yes. Thank you, Mr. Chairman. I am excited to 
introduce Dr. Andrew Exum, a constituent of mine from Dallas. 
Dr. Exum is an executive at Hakluyt & Company, a global 
management consultancy. Before that, he served as Deputy 
Assistant Secretary of Defense for Middle East Policy, from 
2015 until 2017.
    And previously, he served active duty in Afghanistan and 
Iraq where he led a light infantry and ranger platoons, and 
later served as a civilian in the Department of Defense on a 
fellowship from the Council on Foreign Relations.
    Dr. Exum, thank you so much for coming, sir. We have some 
friends in common who have spoken highly of you. I am sure 
everything they said is not true, but we are happy to have you 
here. And thank you for sharing your expertise with us.
    Thank you, Mr. Chairman.
    Mr. Deutch. Thank you, Mr. Allred. It is worth pointing 
out, as the member representing South Florida, that many, many 
of the witnesses who appear before our committee 1 day will 
ultimately reside in my district as well.
    Next, I would--it is my honor to introduce Under Secretary 
Christine Wormuth. Ms. Wormuth is the director of the RAND 
International Security and Defense Policy Center and is a 
frequent writer and speaker on foreign policy and national 
security and homeland security issues.
    Prior to joining RAND, she served as Under Secretary of 
Defense for Policy at the United States Department of Defense 
from 2014 to 2016. She previously served in multiple roles at 
the Pentagon, including Deputy Under Secretary of Defense for 
Strategy, Plans, and Forces, and senior director for defense at 
the National Security Council. And she was a senior fellow at 
the Center for Strategic and International Studies.
    Welcome, Ms. Wormuth.
    Finally, Ms. Anna Borshchevskaya is a senior fellow at the 
Washington Institute focusing on Russia's policy toward the 
Middle East, a Ph.D. candidate at the George Mason University, 
and a fellow at the European Foundation for Democracy.
    She was previously with the Atlantic Council and the 
Peterson Institute for International Economics, a former 
analyst for a U.S. military contractor in Afghanistan. She has 
also served as communications director at the American Islamic 
Congress. Welcome, Ms. Borshchevskaya.
    Also, Dr. Exum, I would also extend my welcome to you as 
well.
    Thanks to all of you for being here today. Let me remind 
our witnesses to limit your testimony to 5 minutes. Without 
objection, your prepared written statements will be made part 
of the hearing record.
    Again, we thank you so much for being here today. And, Dr. 
Alterman, you are recognized.

  STATEMENT OF JON B. ALTERMAN, PH.D., SENIOR VICE PRESIDENT, 
 ZBIGNIEW BRZEZINSKI CHAIR IN GLOBAL SECURITY AND GEOSTRATEGY, 
 DIRECTOR OF THE MIDDLE EAST PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Dr. Alterman. Mr. Chairman, Mr. Ranking Member, it is an 
honor for me to appear once again before this subcommittee. It 
is important to grasp that China's approach to the Middle East 
is both deliberate and limited. My understanding of Chinese 
foreign policy is that alongside the overarching desire to 
restore China to its rightful primacy among world powers is the 
profound sense of China's vulnerability and insecurity. China 
has no missionary zeal to persuade the world of the virtues of 
Chinese civilization.
    The Chinese government's goal is to secure itself, best 
done in a world driven by the bilateral relations of States. 
China, a country with no allies, is much stronger in a 
bilateral world. The United States, a country with dozens of 
allies, is much weaker in a bilateral world.
    China feels especially vulnerable in the Middle East. It is 
reliant on the Middle East for oil, dependent on its sea lanes, 
and unable to change the fact that the United States is the 
preponderant foreign power in the region.
    In my judgment, China has no intention of displacing the 
United States from the Middle East, confronting the United 
States in the region, or engaging in a rivalry with the United 
States there, and it sees no reason to do so. It feels that 
stabilizing the region is beyond its reach, and doing so would 
likely do more to antagonize potential partners than advance 
stability. Instead, China is happy to have the United States 
incur costs in the region while China derives benefits.
    In the Middle East, China benefits from high hopes and low 
expectations. China is a newcomer to the scene with relatively 
little history but a domestic economic track record that is 
enviable by almost any measure. In some ways, China is in the 
place that the United States was after the first World War, a 
dimly understood global power holding out the promise of a 
better future untainted by an imperialist history.
    China also promises not to disrupt social values in 
societies undergoing profound change. That is, China promises 
access to the Chinese economic miracle while expressing none of 
the Western concerns about fostering systems that produce 
resilient societies. The China model has become even more 
attractive to Middle Eastern governments after the Arab 
uprisings of 2011, which reminded governments of the perils of 
more open political space.
    Further, concern that growing U.S. energy self-sufficiency 
will draw the United States away from the Middle East calls for 
these countries to put in place a hedge.
    You could argue that China is devising a new mode of 
imperialism whereby Imperialism 1.0 was imperialism, or 
European-style Imperialism; Imperialism 2.0 was the U.S.-led 
rules-based international order; and Imperialism 3.0, or you 
might call it Mercantilism 2.0, is a set of wholly interest-
based government-to-government ties that allow the rapid 
exploitation of economic opportunities on what is, at least 
initially, a consensual basis.
    China represents a challenge for Western governments that 
seek to push governments to fight corruption, pursue technical 
excellence, and encourage environmental stewardship. China 
advertises that it provides a quick shortcut to resources.
    Of course, China is not relying on economics alone to 
advance its interests. China also deploys traditional State 
craft to advance its interests and confound its adversaries. As 
I described in my written testimony, U.S. policy toward Iran is 
a many splendored gift for China.
    China is also pursuing close ties with four other Middle 
Eastern countries--Saudi Arabia, the UAE, Egypt, and Israel. 
Each offers something different. And despite differences among 
all of them, China maintains close ties with all of them.
    China's regional strategy is elegant in its simplicity, and 
it seeks engagement based almost entirely on economic 
cooperation. The United States, by contrast, is engaged broadly 
and deeply around the world, seeking to foster the sort of 
long-term changes that help generate economic growth and 
political liberalization in South Korea, Japan, Taiwan, 
Germany, and elsewhere.
    The sting in the U.S. model is it has not led to similar 
development everywhere. The Middle East, Latin America, and 
Africa are full of examples where U.S. development efforts 
failed to meet their goals. China is promising a different 
approach and a different set of results.
    We do not know yet how well this all will work. China has a 
light military footprint around the world, and its 
expeditionary capacity is limited. That means China may have 
difficulty securing its interests--and protecting its large 
overseas population, which numbers as many as 600,000 in the 
Middle East alone.
    China may find that being a global power with global 
interest carries high global costs as well. In addition, a more 
checkered track record may take the bloom off the image of 
Chinese investment, and governments and populations may come to 
feel coerced into accepting economic agreements that favored 
Chinese interests over host country interests.
    What neighbors interpret as Chinese aggression tends to 
draw neighbors closer to each other and seek closer relations 
with the United States. In addition, the whole Chinese economic 
model may collapse under its own weight. But from a U.S. 
perspective, we need to be mindful that the Chinese model may 
pose a formidable challenge. As I see it, China sees us 
pursuing an expensive and obsolete model of global influence. 
They do not want to defeat us. They want to marginalize us.
    To me, the biggest danger we face in the Middle East is 
assuming our adversaries will confront us in the ways we are 
most prepared to be challenged. Facing insecurity, we double 
down on troops on materiel. Confronted with hostility, we 
respond with force. For decades, our strategy has been 
hegemony, which is becoming increasingly expensive to sustain. 
We do not really have an economic strategy. China seems to 
harbor no hegemonic ambitions in the Middle East and finds the 
doors thrown open to its influence.
    It seems to me that we have to rethink our approach to the 
region, not do as we have done for 50 years. We have to--try to 
lead the world to a better future rather than reinforce the 
status quo. And, sir, I suggest that we need to continue to 
make the world a better place now.
    Thank you.
    [The prepared statement of Dr. Alterman follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Deutch. Thank you, Dr. Alterman.
    Dr. Exum, you are recognized.

STATEMENT OF ANDREW EXUM, PH.D., EXECUTIVE, HAKLUYT & COMPANY, 
 FORMER DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR MIDDLE EAST 
                             POLICY

    Dr. Exum. Mr. Chairman and Mr. Ranking Member, thank you so 
much just for giving me the opportunity to come here to speak 
to you today. It is a privilege to represent the great State of 
Texas and the 32d congressional District, which is ably 
represented by Colin Allred. Thank you so much for that warm 
introduction.
    If it is OK with you, I am just going to summarize my 
prepared remarks before the committee.
    As some of you know, from 2015 to 2017, I was the Deputy 
Assistant Secretary of Defense for Middle East Policy. I do not 
have any type of background in Russia. I do not speak Russian. 
I have never even been to Russia. But in the summer of 2015, we 
assessed, as a department and as a government, that the Assad 
regime in Syria was nearly something close to collapse.
    And thanks to the benign guidance of Christine Wormuth, we 
assembled a kind of tiger team within our office to go over 
scenarios that we called catastrophic success. In other words, 
what would it look like if the Assad regime collapsed, you 
know, overnight or collapsed very rapidly in a way that would 
in some ways be welcome but in other ways would seriously 
endanger U.S. interests?
    Now, that is what we saw from a five-sided concrete box in 
Northern Virginia. I imagine that the Russians and the Iranians 
saw something that was much more real and much more imminent 
from their perspective, and that is what I believe led the 
Russians to double down in Syria in the fall of 2015 and to 
surge a lot of troops there.
    Their stated motivations for going into Syria did not line 
up, unsurprisingly, with their revealed motivations. stated, 
they said it was all about counter terrorism. We assessed that 
their revealed motivations for going into Syria at the time 
ranged from, yes, counter terrorism was part of the reason why 
they were there, but mainly they were there to prop up their 
allies.
    Tactically, they are dependent on the warm water ports in 
Tartus and their presence. That allows them to project power 
into the eastern Mediterranean.
    We also assessed that kind of strategically this was about 
the Russians saying enough, especially after U.N. Security 
Council Resolution 1973 and the way that was used to overthrow 
the regime in Libya.
    Russia, which has always feared and has greatly resented 
the color revolutions and the Arab revolutions, the Arab 
Spring, which they saw the United States and its Western 
partners as being behind, this was a way for them to draw a 
line in the sand and say that is not going to happen anymore.
    They also used it as an opportunity to build their own 
coalitions. Part of this was to say, yes, America, you have, 
you know, a 48-nation coalition, but we, Russia, we also have a 
military coalition, and you need to look at us as a peer, as 
somebody that is worthy of being taken seriously.
    And then, second, and perhaps most importantly, this was in 
some ways Russia's entre back into the international community 
after the isolation which accompanied the invasion of Crimea.
    The decision about whether to talk to the Russians about 
Syria was a controversial one within the administration. I, and 
many members of the Department of Defense, were not in favor of 
this. From my perspective, I viewed Russia as arguably being 
the least important member of their coalition--that coalition 
which included Hezbollah, Iran, the Assad regime.
    And even if we were able to reach some sort of 
accommodation with the Russians, I did not think they would be 
able to deliver on it. By contrast, we could deliver our 
coalition.
    Second, we believed that they would use these negotiations 
as a way to buy time and space for them to pursue their true 
military objectives. Again, they said this was about counter 
terrorism. But in point of fact, we all knew where the 
terrorists were. The Jabhat al-Nusra was in the northwest of 
Syria. We had the Islamic State in the east. Russia 
concentrated its military power in recapturing those key urban 
areas, such as Aleppo and Damascus, that the regime valued. 
They were 100 percent aligned with the regime's overall goals.
    However, in the negotiations, I will confess that we found 
the Russians to be relatively scrupulous. It is a quirk of 
Russian bureaucracy that they will actually lie to one another. 
So you could be talking to a Russian general or intelligence 
officer or diplomat who will be presenting in good faith what 
they believe to be the case when you know it is not the case.
    And this leads to the second point, which is I also think 
they use these negotiations, and we were very conscious of 
those at the time, to not only find out what we knew about 
Syria but find out how we knew what we knew about Syria, 
because they were very interested in the sources and methods 
that we have been able to develop, quite frankly, over the cold 
war.
    In the end, I have to say that, you know, although we in 
2016 somewhat chuckled when we saw the Kuznetsov, Russia's only 
aircraft carrier, belching across the Mediterranean en route to 
Syria. The Russians were successful in Syria, and the way they 
have used that success and the success of their coalition has 
essentially been to tell our traditional partners in the region 
the United States is a fair weather ally; we are with you fair 
or foul weather. We are an all-weather ally, and Syria is the 
proof.
    And, you know, I remember when I left the Army and went to 
graduate school and was studying the Middle East, when we 
talked about the Russian presence in the Middle East, we talked 
about it as a historical artifact. That is no longer the case 
today.
    It was not the case when I returned in 2015, but Russia is 
here to stay. And for many of our traditional partners--the 
Israelis, the Saudis, the Egyptians--dealing with Russia as a 
member and as a presence in the region is, quite simply, not 
optional.
    I am happy to take your questions on more about the 
negotiations or about how we view the Russians, but I will do 
so during Q&A. Thank you.
    [The prepared statement of Dr. Exum follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Deutch. Thank you very much, Dr. Exum.
    Ms. Wormuth, you are recognized.

    STATEMENT OF CHRISTINE WORMUTH, DIRECTOR, INTERNATIONAL 
    SECURITY AND DEFENSE POLICY CENTER, SENIOR FELLOW, RAND 
   CORPORATION, FORMER UNDER SECRETARY OF DEFENSE FOR POLICY

    Ms. Wormuth. Good afternoon, Chairman Deutch, Ranking 
Member Wilson, members of the committee. Thank you so much for 
offering me the opportunity to be a part of this excellent 
series of hearings. I really commend you for the light that you 
are shining globally on the role of Russia and China.
    China and Russia's increased engagement in the Middle East 
in recent years underscores that the United States is in a new 
era of strategic competition, one that is taking place at a 
time when many Americans are understandably fatigued with the 
role of the United States as leader and world's policeman.
    So I wanted to offer a few thoughts as a bigger frame maybe 
to talk about what is at stake at this competition and what are 
the players competing for. For the United States, I think our 
goal is to ensure our continuing prosperity and security in an 
increasingly complicated and contested world.
    Russia, on the other hand, a country with a very strong 
military but a deteriorating economic picture, seeks to 
preserve its status as a great power for as long as it can. 
China, on the other hand, fueled by its tremendous economic 
strength, is pursuing a long-term strategy aimed at restoring 
what it sees as its rightful and traditional historic place as 
a world power.
    To prevail in the competition, Russia is basically trying 
to disrupt the international order, reestablish what it sees as 
its rightful sphere of influence, and to weaken the cohesion of 
our trans-Atlantic relationship with Europe. China sees the 
United States as trying to contain its rise and wants to both 
reestablish its primacy in Asia relative to us and also adapt 
the international order to better accommodate its preferences 
and objectives.
    Looking at Russia and the Middle East specifically, it sees 
its presence there as a way to highlight its status as a great 
power at a time when America's influence in the region is seen 
as waning. Moscow's strategy, as my colleagues have said, rests 
on maintaining good relationships with all of the countries in 
the region and really focusing on maximizing its opportunities 
while minimizing its potential for losses.
    Moscow is deeply concerned about the potential for the 
spread of Islamic extremism to Russia, and in Moscow's view, 
the Arab Spring, as well as our interventions in the region, 
have destabilized it significantly. Russia presents itself, in 
contrast to the United States, as a reliable partner that will 
not lecture about human rights or societal freedoms but is very 
interested in trade, investment, and energy with the countries 
there.
    Sustaining its transactional approach to the relationships 
in the region is getting harder, though, for Russia. While 
Syria did not turn out to be the quagmire that former President 
Obama and others predicted, Russia's military involvement there 
is in its fourth year and there is no diplomatic resolution in 
sight to the conflict.
    While Russia's involvement in Syria could be seen as at 
least partially successful, it does not appear to have the 
economic power or the appetite, I would argue, for robust 
expeditionary military operations that would enable it to 
pursue a more comprehensive approach to the region.
    For China, the Middle East is probably the most important 
region of the world outside of Asia. China seeks recognition 
from the countries there of its status as a rising power and 
sees its relationships as an opportunity to balance U.S. 
influence.
    They appear to be pursuing a strategy grounded in Beijing's 
policy of non-interference abroad, also, like Russia, 
emphasizing positive relationships with everyone there while 
avoiding becoming entangled in the region's many conflicts.
    The engine of China's deepening involving in Middle East is 
its continuous need for energy and its access to economic 
markets. Countries in the region welcome China's investment, 
but 5 years into the Belt and Road Initiative, there are some 
emerging signs of concern, whether it is about debt 
sustainability or environmental impacts or others.
    While China is an economic heavyweight in the Middle East, 
it is much more a lightweight, frankly, militarily, with really 
only the small military base in Djibouti that the chairman 
mentioned.
    So before saying a little bit about what this means for 
U.S. and the Middle East specifically, I would like to 
emphasize that the United States needs an overarching vision 
for success in the strategic competition. We need to develop a 
comprehensive strategy that leverages all of the instruments of 
our power, whether it is economic, diplomatic, military, or 
cultural.
    Discussions of our competition with Russia and China have 
really emphasized the military dimension, and that is 
important. But equally, if not more important, is the economic 
piece. It is figuring out how are we going to reinvest in our 
economic health and our educational system, so we can continue 
to be a world leader in technology and innovation.
    Similarly, we need to develop a more comprehensive approach 
with our allies and partners to just thinking about how we are 
going to compete with Russia and China, and we need different 
approaches. Those competitions are not the same.
    The current administration's preference for bilateral 
approaches fails to take advantage, I would argue, of one of 
our biggest strengths. I would agree that Russia and China, 
while they want to demonstrate their status as a great power in 
the Middle East, they do not want to displace us entirely.
    We need to emphasize consistency in our approach, emphasize 
that we are not leading. We need to pay attention to the BRI 
projects and address concerns we may have to those projects 
that may have implications for our presence in the region.
    And, finally, I would argue we need to avoid overreach if 
we are going to compete successfully. Almost 20 years of our 
military operations, many of them in the Middle East, have led 
to not only the deaths of thousands of American military 
personnel, but they have also eroded our standing in the world, 
and, frankly, created opportunities for Russia and China to 
make gains at our expense.
    So as we think about any future decisions for use of force 
in the Middle East, I think we need to learn from our 
experiences in Iraq and Libya and Afghanistan and think had 
about our vital national interests.
    [The prepared statement of Ms. Wormuth follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Deutch. Thank you, Ms. Wormuth.
    Ms. Borshchevskaya, you are recognized.

  STATEMENT OF ANNA BORSHCHEVSKAYA, SENIOR FELLOW, WASHINGTON 
                 INSTITUTE FOR NEAR EAST POLICY

    Ms. Borshchevskaya. Thank you. Chairman Deutch, Ranking 
Member Wilson, honorable members, thank you for the opportunity 
to testify today.
    In my written testimony, I have gone into detail about 
Russian President Vladimir Putin's strategic objectives in the 
Middle East and North Africa, how those work against our own 
national security interest, and to that end, I touched very 
briefly on China.
    For the sake of brevity, let me summarize. Vladimir Putin 
ensured Russia's long-term prominence in the Middle East and 
North Africa. Washington must now take Moscow into account in 
the region to a degree it has not had to for years.
    The Kremlin is primarily concerned with its own survival, 
which it views as intrinsically connected to its relationship 
with the United States, and, more broadly, the West.
    In a zero sum search for great power status, for Putin to 
win, the U.S. has to lose. And Putin needs victories, 
especially given the trajectory of Russia's domestic politics.
    A long-term military presence on the Mediterranean appears 
to be a critical component of Moscow's goal to deter the West. 
Thus, in Syria, from the very beginning, Moscow's actions 
showed it sought to create--to methodically create an anti-
access/area denial, so-called A2/AD layout, to deter the West. 
This position provides Moscow with greater leverage over NATO's 
southern flank and creates a springboard for further 
activities.
    Moscow benefits from low level conflict in the region and 
has an interest in perpetuating it. This situation creates--
necessitates Moscow's presence, elevates its importance, 
creates opportunities to sell weapons to all sides, and gain 
leverage over all players to create dependence on the Kremlin. 
Thus, Moscow manages conflict but does not bring a genuine 
resolution.
    It is, thus, wishful thinking that Moscow, for example, 
will restrain Iran in the region. In this context, Moscow's 
approach to the region is flexible to ensure position of a 
power broker. The Kremlin courts every major player in the 
region and increasingly they court Moscow.
    American allies from Egypt to Turkey, Israel, the GCC, and 
Morocco, to one degree or another, have come to see Putin as a 
necessary reality, a mediator who can talk to all sides, and 
offer a more reliable partner than the United States.
    Key areas of cooperation are political, military, economic, 
including energy, diplomatic, and soft power-focused. Not only 
does Turkey continue the discussion about the purchase of the 
S-400 from Russia, a purchase that appears to reflect reality 
rather than mere posturing, but Russia is also building 
Turkey's nuclear power plant while Sputnik plays an important 
role in Russian information operations in the country.
    Moscow has managed to pull Egypt closer into its orbit 
through arms, nuclear energy, and economic deals. Russia also 
entered agreements with Morocco that include cooperation on 
nuclear energy. Moscow projects power without incurring 
significant costs as it continues to improve Russia's military 
capabilities, boost arms sales to the region, and develop 
economic ties in the energy and other sectors. Meanwhile, 
Washington's overall commitment to the region remains 
ambiguous.
    To touch very briefly on China, Beijing's involvement in 
the Middle East thus far has been primarily economic. The 
Russia-China dynamic is complex, but specifically in the Middle 
East Beijing has sided with Russia and also seemed happy to 
have Moscow take the lead in the region.
    China's involvement holds major strategic implications for 
the Middle East, but so far Moscow has not--Beijing has not 
expressed a desire to be a power broker or a security provider 
there.
    I made a number of policy recommendations in my testimony, 
which I would like to summarize. First, compete for the region. 
What happens in the Middle East rarely stays in the Middle 
East. We increasingly talk of realignment toward great power 
competition, but in this context the overall retreat from the 
region that began under the Obama Administration continues.
    This situation makes it easier for our adversaries to step 
in, and, indeed, this is what Putin has done.
    Second, we need to craft a clear strategy of dealing with 
Russia. Sanctions alone are no substitute for policy. And to be 
sure, they are an important tool and we should keep utilizing 
it. But as part of a broader strategic vision that involves 
multiple tools.
    To that end, we also have to promote a clear narrative. 
Moscow has much appeal in the region. Putin's world view that 
runs counter to democratic value resonates in the Middle East. 
The U.S. has yet to counter it effectively, especially in the 
context of our own internal polarization and self-doubt.
    Last, we have to remember that there are no quick and easy 
fixes. But with strategic and moral clarity, the U.S. can 
reclaim its leadership position and succeed in the unfolding 
great power competition.
    Thank you.
    [The prepared statement of Ms. Borshchevskaya follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Deutch. Thank you, Ms. Borshchevskaya.
    We will now move to member questions under the 5-minute 
rule. I am actually going to defer until later, and we will 
start with the ranking member, Mr. Wilson, and then alternate 
between the parties. Mr. Wilson, you are recognized for 5 
minutes.
    Mr. Wilson. Thank you, Mr. Chairman. And beginning with Dr. 
Alterman, has China's treatment of the Uyghur population and 
stance on Syria negatively impacted public opinion in the 
Middle Eastern countries? I would like a view from each of you. 
Dr. Alterman?
    Dr. Alterman. Congressman, it is remarkable how little 
public comment there has been outside of Turkey, which has an 
ethnic tie to the Uyghur population. I think this is a 
consequence of the fact that governments in the Arab world 
generally have very tight control over the press. Governments 
have decided, for reasons of diplomatic interest and economic 
interest, they do not want to antagonize the Chinese.
    And they have been pointedly silent in many cases about the 
oppression of the Uyghurs and the collection of perhaps a 
million Uyghurs into what appear to be concentration camps.
    Mr. Wilson. And Dr. Exum?
    Dr. Exum. I have nothing to add to that. I think that is 
exactly right. I think the most notable thing has been the 
silence of the large Arab States with respect to the interment 
of the Uyghur population.
    Mr. Wilson. Thank you. And Ms. Wormuth?
    Ms. Wormuth. I would just add, I think I would absolutely 
agree with Dr. Alterman that because the government has such 
control, there is not a lot of public discussion of it, but I 
think to the extent that Arabs, if you will, on the street, 
Muslims on the street are aware of it, it is probably quite 
unpopular.
    It is also worth noting I think that the Chinese diplomats 
place a lot of emphasis in their interactions with officials in 
Middle Eastern countries basically saying do not criticize us 
publically. That is one of their diplomatic goals, and they 
have been, sadly, very successful to date.
    Mr. Wilson. And Ms. Borshchevskaya?
    Ms. Borshchevskaya. Yes. I would agree with everything that 
was said. The silence on this issue in the region has really 
been quite remarkable, and I agree also that the Chinese 
diplomats indeed push this--press this issue over and over 
again.
    What is also interesting is it is rare that the Chinese--
when in public, Chinese diplomats would talk about their own 
Muslim minorities as if it does not exist.
    Mr. Wilson. And, Ms. Borshchevskaya, you have referenced 
this about the development of nuclear facilities by Russia. 
What has been the level of involvement of Russian nuclear 
energy sector investments? And is there any--what is our 
ability--and I want each of you to answer this, too--for the 
United States to compete?
    Ms. Borshchevskaya. Sure. So with Turkey, as far as I 
understand, the construction of a nuclear power plant has 
already started. With Egypt, there was an agreement signed 
several years ago, and there is plan to begin construction in 
about 2 years. And Russia is helping Egypt finance the 
construction. They are essentially giving them a loan.
    With Morocco, the agreement is more tentative. There has 
simply been an agreement on nuclear cooperation. It is unclear 
where that is headed. But the fact--but the very fact that it 
is taking place is significant.
    Mr. Wilson. And back again--what can the United States do 
to compete?
    Ms. Borshchevskaya. Well, I think, again, it goes back to 
being--for one--you know, to--Egypt, for example, Egypt used to 
be our partner on nuclear energy security. That is not the case 
anymore. I think, again, it goes back to our consistent 
presence in the region, demonstrating to the region that we are 
committed, that we are not leaving the Middle East. The major 
issue is that so many of our allies are hedging bets that they 
feel we are very much ambivalent in what we want to do.
    Mr. Wilson. Thank you. And Ms. Wormuth?
    Ms. Wormuth. I think I would just add, one, the advantages 
of having U.S. companies provide nuclear cooperation, energy 
cooperation, for example, is that our technology comes with, 
you know, a very high level of sort of safety and regulatory 
standards. So I think that is on the positive side.
    I think, you know, the really big competition right now, as 
I understand it, is around Saudi Arabia's desire to build a 
number of nuclear power plants. And I think the concern that I 
would put on the table there is that in signing a 123 
Agreement, we really would like the Saudis to basically say, 
you know, we are interested in doing this, but we are not going 
to enrich uranium.
    And right now, as I understand it, Saudi Arabia has not 
been willing to include that kind of a provision in a potential 
123 Agreement, which is particularly concerning in light of the 
fact that Mohammed bin Salman has indicated that if Iran gets a 
nuclear weapon, Saudi Arabia would want to build one as well.
    Mr. Wilson. Very insightful. Dr. Exum.
    Dr. Exum. No, that is right. I actually think that U.S. 
firms are doing a pretty good job in terms of marketing 
themselves to the Saudis, and I think the administration has 
helped with that. But I think as the Honorable Ms. Wormuth 
noted, that there are sticking points that, frankly, the 
administration should hold firm on.
    We also have leverage. The Saudis are wanting to invest in 
our energy infrastructure going forward. I think that is 
largely a positive thing. The Saudis also want continued access 
to advanced weapon system. That is also in large part--that 
could be a potential chip for negotiations, but I would turn it 
to Jon for further thoughts.
    Dr. Alterman. Congressman, we could drop standards and 
constraints, but I do not think we should. I think the reality 
is that then the Saudis or the Egyptians or somebody else may 
go to a supplier that does not impose those constraints. But I 
am not sure we should stand in the way of that, because the 
constraints are important.
    Mr. Wilson. Thank you all very much.
    Mr. Deutch. Thank you, Mr. Wilson.
    Mr. Cicilline, you are recognized.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Dr. Exum, Brett McGurk, the former U.S. Special 
Presidential Envoy for the Global Coalition to Counter ISIS, 
recently wrote, and I quote, ``The United States must recognize 
that Russia is now the main power broker in Syria. Washington 
has no relations with Damascus or Turan, so we will have to 
work with Moscow to get anything done. Russia and the United 
States have some overlapping interest in Syria. Both want the 
country to retain its territorial integrity, deny safe haven to 
ISIS and al-Qaeda, and both have close ties with Israel.''
    Do you agree with that assessment? And, if not, why not? 
And if you do, kind of what is the best way forward in light of 
that observation?
    Dr. Exum. Sure. Well, I mean, first off, let me just say a 
few words about Brett McGurk, who I think is one of the most 
significant U.S. diplomats over the past 20 years. I mean, the 
things that Brett has done in Syria and in Iraq, really, he has 
been a tremendous servant for the past three administrations.
    Brett and I disagree on this particular issue for the 
reasons that I think I just laid out. It is true that the 
Hezbollah and Iran and the Syrian regime do not necessarily 
want to speak to us. That does not mean necessarily that we 
should speak to the Russians.
    And, again, the sticking point that I would have is that 
while it might be tempting to believe that the Russians can 
deliver on cooperation in Syria, we did not see any of that 
evidence in 2015 and 2016. Frankly, we saw the Russians and 
their coalition partners use the cease-fires that we were able 
to negotiate to rest, refit, and reprioritize for other 
military objectives in Syria.
    Frankly, I do believe that we do share some interests with 
the Russians and we do have some key interests in Syria; 
namely, countering terrorism, the security of the State of 
Israel, especially in southwestern Syria. However, I do not 
believe that Russia shares a broader interest with us going 
forward, and I would have serious reservations about what that 
cooperation would look like.
    During 2016, we floated the idea of joint targeting of 
terrorists with Russia, which caused a significant amount of 
heartburn in my building in particular, because the idea of 
sharing intelligence with the Russians--I mean, the idea of 
marking intelligence secret while Russia was just--it was 
almost impossible to even imagine.
    I believe Russia desires to know a lot about our sources 
and methods that we have spent decades developing. And with all 
due respect, and I hold Brett in the highest regard, especially 
for his service in Iraq, I would disagree with him strongly 
about the conclusions that he has reached. I just do not think 
that Russia can deliver, and I think they have a lot more to 
gain than we do.
    Mr. Cicilline. Thank you. Ms. Wormuth, I want to turn now 
to the Iranian influence in the region. We heard from Secretary 
Pompeo just about a year ago when he presented what he called a 
new Iran strategy, laying out 12 very basic requirements. And 
as best as I can tell, none of the conditions he set out has 
actually been achieved. And I am wondering whether the 
withdrawal from the Iran deal has done anything to limit 
Iranian influence in the region, and whether or not this 
maximum pressure policy is working at all, and frankly, and 
more particularly, what message that has sent to Russia and 
China in the region. I know that is multi-layered, but----
    Ms. Wormuth. Yes. Well, my own sense, you know, (a) I did 
not think it was in our national interest to withdraw from the 
Iran nuclear deal. I think in light of the circumstances that 
was the best deal we were going to get, and it did put off for 
many years the possibility of the Iranians getting nuclear 
weapons.
    That said, what I think has happened now is the conditions 
that Secretary Pompeo has laid out, (a) I do not think Iran has 
any intention of meeting. By withdrawing from the nuclear 
agreement, we, I think, have, you know, disappointed several of 
our European allies. And, frankly, that has become a bit of a 
wedge issue with them.
    And the circumstances that we are in now, I do not see a 
year into withdrawing from the nuclear arrangement that Iran 
has abated any of its malign behavior in the region. If 
anything, we seem to see that escalating. I think as they 
become more and more frustrated with the economic pressure they 
are under, they are lashing out more and more, and I think that 
is very concerning.
    So, you know, where we are right now, I think, again, as 
Dr. Alterman alluded to, our policy I think has actually been 
helpful to the Russians and the Chinese because it has created 
so many wedges for us and has not really done anything to 
address the instability.
    Mr. Cicilline. Thank you. And my final question--civil 
society and democracy activists in the Middle East face 
increased challenges from the suppression of opposition voices 
to censorship of the press to discriminatory laws and 
mistreatment of marginalized communities.
    And over many administrations, our country has stood up to 
balance our very strategic interest in the region with our need 
to stand up for important democratic values.
    The Trump administration has decided in many ways just to 
ignore democracy and human rights altogether and cozying up to 
governments such as Saudi Arabia, which jail women and hack 
journalists to death and silence free speech.
    And I am just wondering, with that kind of disregard for 
human rights, whether the emergence of Russia and China in the 
region--kind of how that impacts it. Dr. Alterman?
    Dr. Alterman. Congressman, I think a very important part of 
China's Middle East strategy is to make the future safe for 
authoritarianism. We have had a different strategy for more 
than a half-century, but the Chinese strategy is to make the 
future safe for authoritarianism because that will help secure 
the current government of China.
    Mr. Cicilline. May I just have one quick followup?
    Mr. Deutch. One quick followup.
    Mr. Cicilline. I guess, how does the change in the kind of 
behavior of the current American President impact that 
strategy, if at al?
    Dr. Alterman. I would hope that we would work through a 
multilateral framework to build alliances with governments that 
both have governments working with us in broad concert, and 
also make clear to governments that there are standards and 
issues and pressure that the U.S. will not compromise. And I 
think we will--we have friends in that.
    We should have friends, and people should want to be our 
friends because they understand the U.S. package is a better 
package, and the reality is that many governments, especially 
in the Middle East, believe the Chinese package is a better 
package for their future.
    Mr. Cicilline. Thank you. Thank you, Mr. Chairman.
    Mr. Deutch. Thank you. Mr. Mast, you are recognized.
    Mr. Mast. Thank you, Chairman. Dr. Exum, rangers lead the 
way. That is right.
    Listen, I love this committee. It saddens me when I hear 
just these irresponsible comparisons about the administration 
cozying up to Saudi Arabia. You know, numerous administrations 
going back forever have these relationships. Anybody could go 
out there and say, ``President Obama, working a deal with Iran 
is cozying up with, you know, the greatest human rights abuser 
that has existed, you know, in this modern era.'' And so it 
does sadden me to see that as part of this committee. I think 
it is wholly irresponsible.
    Beyond that, I would also say this. If any of my colleagues 
on this committee think that we should go out there and have 
further engagement in Syria, then I would encourage them to 
author an authorized use of military force in which you very 
specifically lay out exactly how many U.S. lives, U.S. limbs, 
U.S. treasure, anything else that you are willing to risk in 
advancement of anything that you see as a goal in Syria before 
you go out there and spout your responsible remarks.
    In that, I would like to move to the conversation of China 
a little bit and some of the comments that were made across the 
board. China is assessed by everybody to be a massive economic 
strength. It has been mentioned in nearly everybody's comments. 
As we have hearings like this across the board in different 
subcommittees, everybody talks about China's economic prowess.
    Dr. Alterman, you spoke a little bit about maybe the lack 
of desire for China to go out there and play that hegemonic 
stability role throughout the Middle East. No. 1, it costs them 
in treasure. No. 2, they have to go out there and pick winners 
and losers, and perhaps lose allies where otherwise they do not 
have to pick a friend or a foe or an ally or otherwise.
    So what I would love to hear you all comment on, really, is 
hearing your analysis in that paradoxical situation is, is it 
better or worse to let them or maybe force them into having to 
play a hegemonic role throughout the Middle East? Does it push 
them into a place that they do not want to be, which can be 
good for the United States of America? Or is it better that we 
continue to maintain that hegemonic role or spend our treasure 
in our life to maintain that hegemonic role in your opinions?
    You can start on whatever end you want.
    Ms. Wormuth. I will take a swing at that, Congressman. I 
think we should--I think we should, frankly, try to have China 
take more responsibility and be more a part of the security 
discussion in the region. I mean, they have basically been 
free-riding off of U.S. security guarantees in the region for 
some time.
    They are able to get the energy they need out of the Middle 
East because we have historically secured it and made sure that 
there are free flows of oil.
    Mr. Mast. Does that occur by asking nicely or by forcing 
them into a position where they have to maintain stability?
    Ms. Wormuth. Well, I would say this. I do not think--my own 
view is we should not try to force them to participate in that. 
I do not think you could do that. And, again, in many areas, we 
do not necessarily share the same interest.
    That said, I do think we could continue to do--for example, 
under the Obama Administration, we did go to the Chinese and 
say, ``Be a part of the anti-ISIS campaign.'' You know, 
participate. You all tell us all the time you are worried about 
terrorism, you are worried about the spread of Islamic 
extremism, so come and work with us together, you know, to 
fight this common threat.
    They were not willing to do that at the time, but I think 
we should continue to ask them. Again, we also asked them to be 
a part of the response to ebola, which obviously was in Africa, 
not the Middle East. But, again, our message--I think the 
message of the United States to China should be, if you want to 
be a great power, you need to act like a great power and work 
on some of these common security challenges.
    Mr. Mast. Certainly, Dr. Alterman.
    Dr. Alterman. You know, when we started shared awareness 
and deconfliction exercises off the coast of Somalia for 
counter piracy, the Chinese first said, ``We do not want to 
have anything to do with it.''
    And then finally decided to start coming, and then we said, 
``OK. We have got the problem fixed. We are going to stop 
holding.''
    And the Chinese said, ``Please keep holding them.''
    So the Chinese have been willing to engage a little more 
militarily. I am concerned that we and the Chinese are playing 
very different games, and we continue to invest very heavily in 
military presence, security ties, and we become hived off from 
the genuine national interest of the governments in place.
    I think in a way we have been carried too much by momentum. 
And as I say in the written statement, having grown up in 
Poughkeepsie, New York, a company--a town really nurtured by 
IBM. I am particularly aware that IBM kind of lost the computer 
market because they concentrated on the wrong piece of it, and 
they let other companies develop things that were much more 
remunerative.
    I think we have to rethink what our role in the Middle East 
is, what are our tools, and how do we make ourselves vital to 
governments. I think we have to rethink part of how we engage 
in the region.
    Mr. Mast. Absolutely. Thank you all for your comments and 
your testimoneys today.
    Mr. Deutch. Thank you, Mr. Mast. Mr. Allred, you are 
recognized.
    Mr. Allred. Thank you, Mr. Chairman. And thank you to our 
panel. I read your written statements and learned a lot, and I 
think this is a very important topic. I want to thank you, Mr. 
Chairman, for holding this.
    As we are kind of tilting now to world power competition, I 
see the Middle East as just an extension of what we are seeing 
even in our own hemisphere, but certainly around the world. And 
so I want to, you know, talk about how we counter influence and 
how we can do that in a way that is consistent with our 
economic values as well, but also militarily.
    And so I want to begin with arms sales because, as you are 
aware, China and Russia are selling arms to our allies, and we 
have even seen some of our arms in Yemen, for example, ending 
up in the hands of al-Qaeda. And I am wondering if they are--if 
we have any concerns or if you have any concerns about China 
and Russia getting access to classified information or to any 
of our military systems and better understandings of that and 
how and what the Congress can do in mitigating the risk to U.S. 
military equipment to try and prevent that.
    Ms. Wormuth, do you want to take it first?
    Ms. Wormuth. Sure. Happy to do that. I think what we see 
with Chinese and Russian arms sales, more probably Russia than 
China, of course it is a source of revenue for them. But what I 
saw happen over the last few years is as the countries in the 
Middle East become less confident of whether the United States 
is going to be there become frustrated, frankly, sometimes with 
the conditions that we put on our arms sales, which we do so in 
most cases for very good reasons.
    They have essentially engaged in hedging behavior and sort 
of they look particularly at Russia as an alternative. You 
know, when Egypt got really fed up with us for not telling them 
things because of the conditions that Congress, among others, 
put on those sales, they turned to Moscow. And I think that 
will keep happening I think unless we do a better job of making 
it clear that we are staying in the region and that we are 
reliable.
    They may not like everything that we have to say to them, 
but I think right now countries are not really sure exactly 
what our approach is.
    I do think we want to be concerned any time we are engaging 
with arms sales in putting in protections to make sure that the 
technology is not leaking or being proliferated. And there are 
a lot of mechanisms already in place. But I think to the extent 
that Congress can emphasize the importance of those conditions 
in the various sales that the administration may be 
contemplating, those are very important.
    Mr. Allred. And so just to followup really quickly on that, 
because you touched a little bit on the restrictions that we 
put in place and the things we ask of our allies. On this 
committee, we have been talking about--a lot about our kind of 
withdrawal from global leadership on human rights and standing 
up for those, especially in this region.
    Do you think it is possible to maintain that commitment and 
to be--to, you know, carry that goal while also continuing to 
partner in the way that we have on arms and others by perhaps, 
as you were saying, making sure they understand that we are 
here to stay, we are going to be part of this expressing some 
sort of overall strategy?
    Ms. Wormuth. I think it is important that we continue to 
have human rights and basic freedoms be an important part of 
our foreign policy, frankly, and I think that should be part of 
our conversation with countries in the region.
    So while, frankly, when I was in government, it was 
sometimes a struggle as we were trying to work through 
decisions about whether to go forward with sales, given 
constraints that Congress had levied on us, those are important 
things I think to weigh.
    And I would encourage Congress to think about--I do think 
you want to give the executive branch some wiggle room to make 
judgments about what the right balance is between the human 
rights conditions and others things, or democratization things, 
and sales, because sales are an important part of our 
relationship, but I think having some conditions in place, it 
is good to have those guardrails for the executive branch.
    Mr. Allred. Yes. Dr. Exum?
    Dr. Exum. Yes. If I could just add one thing. I mean, I 
think over the past 30 years we have had this theory of the 
case that if we buildup Gulf--especially host nation security 
capacity, then we will be able to remove some of those 35,000, 
roughly, U.S. troops that are in the Gulf, I think 59,000 
region in the alone, so it is a huge investment in our case.
    The challenge--to my mind, the strategic challenge is if 
you buildup that host nation security capacity, they might 
actually use it. That has been the case in Yemen, right? Our 
end use monitoring regimes are pretty darn good if the weapons 
are in garrison. If they are deployed in an expeditionary 
fashion, it gets tougher to keep track of exactly where all of 
those weapons are going.
    I would echo everything that Ms. Wormuth said. I think that 
the Senate has done a good job in forcing a binary choice on 
Turkey with respect to the F-35 and the S-400. Another area 
that I would put on your radar is that the restrictions that we 
have, some of them for very good reasons, on unmanned aircraft 
and UAVs, means that they are bringing in Chinese or Russian 
UAVs, often with Chinese or Russian engineers in close 
proximity to advanced U.S. weapon systems.
    That is something that I think the Congress can take a hard 
look at to make sure that the U.S. Department of Defense and 
the Department of State are keeping appropriate distance 
between those weapon systems and foreign nationals.
    Mr. Allred. Thank you so much. Thank you, Mr. Chairman.
    Mr. Deutch. Thank you. Mr. Trone, you are recognized.
    Mr. Trone. Thank you, Mr. Chairman. China, they built their 
first overseas military base in Djibouti. How effective do you 
think this base is in projecting power in the Arabian Sea and 
the Red Sea? Who wants to take a stab?
    Dr. Alterman. Congressman, I do not think they can really 
project power, but it certainly helps their surveillance. They 
partly are watching us because we are right next door. But they 
care an awful lot about shipping through the Red Sea, through 
Bab-el-Mandeb off the coast of Yemen, and then up through the 
Suez Canal. And this is their first overseas base, of course. 
It is a big thing to say.
    And it is largely about just keeping track of the shipping. 
I do not think it is really a force projection so much as it is 
to understand the flow, to do surveillance, to be present, more 
than to actually be able to act. The Chinese are still a little 
bit scarred that they had to suddenly evacuate 30,000 people 
out of Libya when Gaddafi fell. They had never done anything 
like that before. They are not going to be able to do that out 
of their base in Djibouti, but it begins to represent a 
spreading out for the Chinese navy.
    Mr. Trone. So if this is the first, which it is, where do 
you think they are going to build a second, or will they be 
building a second? And what are they trying to accomplish, just 
more listening surveillance?
    Dr. Alterman. They are certainly investing in a port in 
Pakistan called Gwadar that has a sort of Chinese industrial 
zone behind it. I do not know anybody who thinks that base 
makes--or that port makes sense economically, given how much 
the Chinese are putting into it. There is a Chinese-Pakistan 
economic corridor that is part of their strategy.
    One of the problems the Chinese have is they expand 
westward and down through Pakistan. It partly takes them to the 
Uyghur populations that we were talking about earlier with 
Congressman Wilson, which is a security problem, but also 
brings you into some nasty areas of Pakistan.
    Certainly, one of the things that the Chinese strategists 
have expressed concern to me about is, as you go west through 
the Uyghur areas and down through Pakistan, you may be setting 
up a highway for radicalists to come into China instead of get 
goods out of China. So how well that is all going to work in 
practice is unclear, but certainly the Gwadar port is something 
that people--I wrote a book with--co-wrote a book with a 
specialist on China more than 10 years ago. He was paying a lot 
of attention to Gwadar.
    Gwadar is still in the early stages, so it is not moving 
that fast. But it is certainly something that draws a lot of 
attention.
    Mr. Trone. So if we looked at the container operations they 
set up in Abu Dhabi--in addition, and we know Athens they have 
done a port--the port in Athens, they have done two ports in 
Israel. I mean, is this all part of--it seems like at the entry 
points everywhere they are grabbing the ports. Is this 
infrastructure part of Belt and Road still surveillance is your 
best guess as where they are going with all of this?
    Dr. Alterman. Well, they are certainly interested in trade. 
The report gives an opportunity to talk about win-win. What 
amazes me about the Belt and Road, frankly, is how little money 
they have put into the Middle East and how much benefit they 
have gotten out of the Middle East, because everybody projects 
their country to be the central node for the Belt and Road in 
the region.
    So the Iranians I think are getting a lot of investment and 
are very enthusiastic about it, and that is something I talk 
about in my testimony, that this is sort of the way China 
thinks about Iran.
    But the Egyptians are very enthusiastic. The Emiratis are 
very enthusiastic. The Saudis are enthusiastic. The Qataris are 
enthusiastic. Everybody seems to think that Belt and Road is 
going to put them front and center with a rising power in the 
world.
    And I think, frankly, the United States has not had a 
counter to it. We tie people up in regulations. It all seems 
tedious. This----
    Mr. Trone. Let's just over the technology a second with 
Huawei. We talked--you may have talked about that already 
before. I missed it. But, I mean, with Huawei, they are taking 
over the communications gear, they are low bidding it to get in 
and get down--and I am a business guy--to buy into the market. 
What dangers do you see in our intelligence in loss of data 
privacy?
    Dr. Alterman. I think some of my other colleagues might 
talk better--it is a profound issue and gives them profound 
insight should they choose to use it.
    Ms. Wormuth. I think, Congressman, I would just add, the 
concern I think that we have to have front and center with 
Huawei is the fact that it is essentially a State--it is not a 
State-owned Chinese company, but it is probably a State-
directed Chinese company. And, hence, you know, anything like 
that that--you know, if they have a global presence, if you 
will, on posture into the 5G network, for example, they are 
going to have--the Chinese government is going to have access 
to that as a result of the fact that Huawei is a State-directed 
company.
    And I think that is the reason we have to be so concerned 
about that. I would encourage the administration to really 
start thinking in a comprehensive way about how do we talk to 
our allies and partners around the world, whether it is in 
Europe, in Asia, in the Middle East, to help level-set everyone 
to what the threat is, so that we can have a more coordinated--
--
    Mr. Trone. So you believe it compromises our data that is 
being transmitted through the 5G eventually.
    Ms. Wormuth. I am no IT expert, but I would be very 
concerned about it based on what I know.
    Mr. Trone. Thank you.
    Mr. Deutch. Thanks very much. Thanks again to the 
witnesses. I want to just go back to Russia and comments that 
were made earlier. Russia is an all-weather ally, a reliable 
partner that will not leave. And, Ms. Borshchevskaya, you 
talked about Iran. We can't expect them to affect Iran.
    I want to talk about Russia and Iran. What do we make of 
where the relationship is going? We know of Russia's 
relationship with Israel and the agreement that they seem to 
have reached where Israel is about to do what it needs to do to 
protect itself. But what should we expect of Russia? Can we 
expect Russia to play any role in helping long term with 
Iranian presence, Iranian malign activities, or when you say 
they do not lecture, should we just expect the relationship 
between Russia and Iran to grow stronger? Yes.
    Ms. Borshchevskaya. Sure. So first, you know, there is 
oftentimes--oftentimes when a conversation starts about Russia 
and Iran, there is an emphasis on the history between these two 
countries, and the history is one of largely animosity. The 
problem is that that is increasing--that has not been relevant 
in the last several years, and certainly Syria, in particular, 
brought the Russia-Iran partnership to new heights.
    And, frankly, if you look at what Russia did in Syria, one 
reason why they have been so successful in Syria is because 
they have relied on Iran to do all of the heavy lifting.
    So, you know, back when the intervention started, many had 
thought that this would be another Afghanistan for Russia. The 
reason why it was not is because Iran did the hard work.
    And, you know, Russia is interested in trade with Iran. 
Hezbollah has learned from Russia. They have operated side by 
side. There have been reports of Hezbollah using a Russian flag 
as a cover to avoid getting hit by Israel. Hezbollah have 
traveled to Moscow. Putin had invited them to Moscow. So the 
Russian-Iran partnership, really it is unprecedented in the 
grand scope of the history of these two countries in 500 years.
    Now, at the same time, Russia certainly has good relations 
with Israel, and that is important for the Kremlin as well. 
They have been able to--the Kremlin has been able to balance 
these relationships. And as you said, they have reached an 
agreement. Israel has been able to conduct its strikes, but at 
the same time Russia, by its very presence, by its nature of 
presence in Syria, is able to collect intelligence on Israel, 
not just on the U.S. and the U.S. coalition but also on Israel.
    And certainly, you know, the fact of the matter is, 
Israel's freedom of action is dependent on Russia. Yes, they 
have given it, but they are dependent, and I think that is the 
point. So----
    Mr. Deutch. Thank you, Ms. Borshchevskaya.
    Ms. Wormuth, let me just go to you on this. Is there--
longer term, should we expect this relationship to grow?
    Ms. Wormuth. I am not sure that it is going to grow. It 
strikes me that the Russia-Iran relationship is complicated. 
You know, in the short term, Iran has been an expedient partner 
to Russia and Syria for all of the reasons that Ms. 
Borshchevskaya explained. But now you see a situation where I 
think Russia is trying to get Assad to perhaps make some 
concessions, but Iran is actively whispering in his ear to hold 
firm and not make concessions, because they want to stay there.
    So there are tensions there that I think to me do not 
necessarily mean that that relationship will continue, much 
less get much, much stronger.
    Mr. Deutch. So then what do we do, Dr. Exum?
    Dr. Exum. Well, actually, the one thing we haven't talked 
about--and it surprises me--we haven't talked about oil and we 
haven't talked about----
    Mr. Deutch. I was getting there, but go ahead, please.
    Dr. Exum [continuing]. Russia's relationship with OPEC in 
particular. Saudi Arabia has absolutely pressured Russia to 
distance itself from Iran and has thus far been unsuccessful. 
But the relationship between OPEC and Saudi Arabia and Russia, 
that is a relationship that has grown deeper over the past 2, 3 
years.
    I think if you were to poll, you know, analysts of the oil 
markets and--you know, 2 years ago and ask them if they thought 
that the near-term agreement between Russia and OPEC would have 
endured as long as it had, I think they would have been a bit 
surprised, but it has, and that is a relationship that is 
increasingly important.
    I think that the Saudis can be an important voice in terms 
of balancing Russia's relationship with Iran.
    Mr. Deutch. Yes. Dr. Alterman?
    Dr. Alterman. And, frankly, the Saudis are looking to show 
a tip toward Russia and China as a way to get us to back off. 
One of the things I heard from some Saudis in recent weeks was 
that Mohammed bin Salman especially is interested in 
demonstrating to the United States that he has other options if 
the United States is going to continue to talk about human 
rights and other kinds of things.
    And he is interested in showing that he can go toward 
Moscow or Beijing. He does not have to rely on Washington.
    Mr. Deutch. And Moscow may not lecture in the region, but 
for the Saudis, if their relationship with Iran is there are no 
strings attached, that is going to start to affect the 
relationship between Saudi and Russia.
    Let me just, Dr. Alterman, stick with you. On the issue of 
oil, the administration has ended all waivers for purchases of 
Iranian oil, including China. Do you expect China is going to 
stop buying all oil--all of the oil it buys from Iran?
    Dr. Alterman. I think there are a couple of things that are 
going to happen. First, the Chinese are going to smuggle some 
oil. They are probably going to smuggle a little more oil. 
Exactly how much we will know about, I am not sure.
    I think the Chinese also will pursue efforts to find 
workarounds to our sanctions. It seems to me that every time we 
use sanctions we run the same risk that hospitals develop and 
having penicillin-resistant germs and everything else. If you 
keep using it, people will find ways to get around it, and I 
worry that we may be in the----
    Mr. Deutch. So how is it going to do it this time?
    Dr. Alterman. Excuse me?
    Mr. Deutch. How is it going to do it this time, get around 
the sanctions?
    Dr. Alterman. Well, there are ways to do things with swaps. 
I think the Russians, as I understand it, could do things with 
swaps and be selling more Urals blend oil than they are 
actually producing. You could set up some small things, not 
enough to get Iran up to its normal level of sales. But I think 
that the world is exploring ways to work around American 
sanctions.
    Mr. Deutch. Just one other question quickly. In recent 
years, Chinese has rallied cooperation in the tech sector. In 
2016, Chinese investment in Israeli high tech, VC, approached 
$1 billion. Does their growing involvement--China's growing 
involvement in Israel's high-tech industry raise security 
concerns, and should it, and is there enough attention being 
paid to that?
    Dr. Alterman. It does. The Israelis are paying more 
attention to it. There was a reform in Foreign Policy a couple 
of months ago saying that the Israeli National Security Council 
prepared a report about foreign investment, which was really 
about Chinese investment in Israel.
    I am going over there in a couple of weeks and will be 
talking to people specifically about this issue. And, frankly, 
I have been surprised at the level I have been able to set up 
meetings to talk about this issue.
    Mr. Deutch. All right. Terrific. Thank you very much.
    Mr. Mast had an additional question or two.
    Mr. Mast. Yes. Thank you, Mr. Chairman. I was worried after 
13 minutes we stopped alternating sides here. So thank you for 
the time.
    Mr. Deutch. We just wanted to get through all of the 
questions.
    Mr. Mast. Yes. As would I. Thank you.
    I would like to go back to Iran and Russia. I got to speak 
earlier about China and Russia. Would love to hear from each of 
you, in your opinion, did the Iran deal, the JCPOA, did it 
bring the United States and Iran closer together, or did it 
bring Russia and Iran closer together through the parameters of 
the joint comprehensive plan of action?
    Ms. Wormuth. I will take a swing at that again. I think one 
of the things I think that the Iran nuclear deal did with the 
United States and Iran is it did open a channel of 
communications at very senior levels that I think had some 
utility.
    And I do not think we necessarily have the same channels at 
the same levels right now. So, for example, you know, where it 
had some utility was I am sure you will recall, Congressman 
Mast, when our sailors found themselves in Iranian waters and 
were taken prisoner essentially. That situation was resolved, I 
believe, more quickly than it probably would have been because 
there was dialog.
    Beyond that, I am not sure--you know, I would not argue 
that it brought the United States and Iran closer. I think, you 
know, many of us who worked in government at the time did not 
have a lot of illusions about the possibility that, you know, 
peace and happiness is going to break out.
    Mr. Mast. Did it bring Russia and Iran closer together?
    Ms. Wormuth. My own sense is what brought Russia and Iran 
closer together was, frankly, the cooperation in Syria more, 
really, than JCPOA itself. That is my personal assessment.
    Mr. Mast. Dr. Exum? Dr. Alterman?
    Dr. Exum. Yes. I am doing this with some trepidation 
because there are very few people I respect more than 
Christine. But I think that the JCPOA was fine as far as 
addressing Iran's nuclear issue. But there were some outsized 
hopes within the last administration that it would open the 
door for a broader dialog with Iran, and I think those hopes 
were unfounded.
    We saw plenty of evidence that the Iranians were happy to 
talk to us about nuclear issues and about the JCPOA and about 
enforcement, any issues around that. But Syria is the best 
example of Iran not wanting to speak about issues that did not 
have to do with the JCPOA.
    I would agree with Ms. Wormuth that I do not see it really 
affecting the Iranian-Russian relationship. I think Syria was 
what cemented that. But I think the JCPOA, which I also 
supported and which I think was fine for addressing one of the 
three threats Iran posed--the other being its asymmetric 
activities and its conventional weapons buildup--it is fine for 
those purposes, but it did not lead toward any greater thaw in 
the relationship. And I just think we have to be honest about 
that.
    Dr. Alterman. Congressman, I, frankly, think we are going 
to have hostile relations with Iran for the rest of my 
professional career. I do not think the JCPOA would have 
changed that. But I think what it did is it got us on the side 
with all of the economies of the world that matter, with a 
number of allies to pressure the Iranians, and the fact is the 
Russians and the Chinese were with us holding the Iranians to 
account.
    What it seems to me it partly explains Russia and Iran 
coming together is they both have an interest in splitting us 
off from our allies. And one of the things I really worry about 
is that we are much more isolated in the world in carrying out 
policy.
    When the administration had their meeting in Poland, it 
highlighted not the world's revulsion at excesses of the 
Iranian government, but the fact is the U.S. was adopting a 
policy that its allies did not, that our policy through the 
JCPOA is shared by four countries in the world and all of our 
allies are on the other side.
    And that is what I really worry about in the region is for 
so many of these hard problems it feels to me like we are 
taking them on by ourselves, and that is exactly what opens the 
door to the Russians and the Chinese doing better.
    Where we are most powerful is when we speak for 100 
countries at once. There is no country in the world besides the 
United States that can gather 100 countries behind it, and we 
are not trying to gather 100 countries behind us.
    Mr. Mast. Thank you all for your thoughtful responses.
    Ms. Borshchevskaya. Yes. If I could just--if I could just 
add a comment. I agree that it was really Syria that mattered 
more for bringing Russia and Iran together. With regard to the 
JCPOA, you know, Russian officials complained for years that 
tough sanctions hurt the Russian-Iran trade. They really wanted 
trade.
    And with the agreement, several important things happened. 
The Kremlin had touted this as their diplomatic victory. In 
fact, they have Tweeted, you know, that this was Russian 
diplomacy. Russian diplomacy was so important in helping 
achieve the JCPOA.
    What they had also done is they sold the S-300 to Iran 
immediately after the deal. That was an important element.
    What is also interesting is that they certainly--you know, 
and the Russia-Iran dynamic is very complex. It is a very 
complex relationship. They were worried about the Iranian 
nuclear program, but also at the same time they sort of 
downplayed its seriousness.
    So there was a very complex dynamic going on. And, yes, I 
just want to highlight the sale of the S-300 after the JCPOA.
    Mr. Deutch. Great. Thanks. I want to thank the witnesses 
for being here today, and the members who have been here to ask 
questions. Thanks for your testimony.
    Members of the subcommittee may have some additional 
questions for you, and we ask our witnesses to please respond 
to those questions in writing. I would ask my colleagues that 
any witness questions for the hearing be submitted to the 
subcommittee clerk within 5 business days.
    And with that, without objection, the subcommittee is 
adjourned.
    [Whereupon, at 3:31 p.m., the subcommittee was adjourned.]

                                APPENDIX

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
